                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-37A                                  Office of Inspections                                       July 2013




                             Inspection of
                       Embassy Khartoum, Sudan




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                 i
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                                 ii
                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                               1
Context                                                                     2
Executive Direction                                                         3
Policy and Program Implementation                                           6
  Advocacy and Outreach                                                     6
  Reporting and Analysis                                                    7
  Political/Economic Section                                                8
  Foreign Assistance Management                                             9
  Public Diplomacy                                                         10
  Consular                                                                 13
Resource Management                                                        16
  General Management                                                       16
  Financial Management                                                     17
  Human Resources                                                          19
  General Services                                                         23
  Facilities Management and Safety, Health, and Environmental Management   25
  Information Management                                                   26
Quality of Life                                                            28
  Health Unit                                                              28
  Employee Association                                                     28
  Community Liaison Office                                                 28
Management Controls                                                        29
  Human Resources                                                          29
  Supply Chain Management                                                  29
  Consular Internal Controls                                               30
List of Recommendations                                                    31
List of Informal Recommendations                                           35
Principal Officials                                                        37
Abbreviations                                                              38




                                           iii
                       SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
   The U.S. Government’s ability to engage with Sudan is complicated by several sets of U.S.
    and United Nations sanctions that restrict trade and investment and by International Criminal
    Court indictments of President Al-Bashir and other key officials for crimes, including
    genocide in Darfur.

   Embassy Khartoum did a commendable job dealing with a September 14, 2012, attack on the
    compound, both in defending against the attackers and in repairing the damage quickly.

   The Department of State (Department) ordered the departure of half of Embassy Khartoum’s
    American employees after the September 14 attack. Although the first stage of ordered
    departure proceeded successfully, subsequent poor communication and failure to manage
    evacuees’ expectations [Redacted] (b) (5)

   The Office of the U.S. Special Envoy for Sudan and South Sudan (S/USSESSS) and
    Embassy Khartoum share responsibility for U.S. policy toward Sudan. The roles and
    responsibilities of the two entities are not clear, sometimes causing confusion.

   Despite the sharp reduction of direct-hire staff, demands for embassy products and services
    continue, including reporting, U.S. Agency for International Development (USAID)
    activities, management support, and consular services.

   The mission has done an excellent job with spot reporting while on ordered departure.

   At least four positions need to be designated with a higher level of Arabic proficiency.
    Embassy Khartoum needs to restart and revamp its post language program.

   The public affairs section (PAS) could increase its effectiveness by coordinating publicity
    with USAID on assistance activities and by seeking the support of regional public diplomacy
    officers to increase the range of activities.

   The 2012 ordered departure reduced the management section’s U.S. direct-hire personnel
    strength by six, which has not affected overall service delivery but has weakened some
    internal controls.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where the OIG team did not identify problems that need to be corrected.

      The inspection took place in Washington, DC, between January 7 and 30, 2013, and in
Khartoum, Sudan, between February 16 and March 2, 2013.[Redacted] (b) (6)

                                                                        conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
       Sudan’s area is equal to approximately 20 percent of that of the United States. The
diverse population of about 26 million has a number of distinct regional identities. Most of the
population is Sunni Muslim.

         Sudan gained independence from Great Britain in 1956. Beginning just prior to
independence, Sudan has been involved in two civil wars with what is now South Sudan, lasting
a total of nearly 40 years. The conflict with South Sudan resulted in the 2005 signing of a
Comprehensive Peace Accord, brokered partially by the United States. A 2011 plebiscite in
South Sudan led to the independence of that country, with its largely Christian and animist
population. Peace between Sudan and South Sudan remains elusive and is of high-level interest
to the U.S. Government.

        Sudan is an extremely poor country. The gross domestic product for 2011 was $1,435 per
capita. The current literacy rate is 61 percent, and 80 percent of the population is employed in
agriculture. From the early 1990s until the independence of South Sudan in June 2011, growth in
the Sudanese economy came from oil production and sales. With the separation of the two states,
Sudan lost three-quarters of its oil production, although it controls the pipelines from South
Sudan. Earnings were severely depressed when South Sudan stopped oil production in January
2012 because of disputes between the two countries on the sharing of oil income and political
and security questions. The country has initiated an austerity program, but annual inflation has
increased to 47 percent.

       U.S. and international officials have used the term “genocide” to describe Sudan’s
handling of the Darfur conflict in the western part of the country. The International Criminal
Court indicted three high-ranking officials, including President Al-Bashir and the Minister of
Defense, for their actions in Darfur.

       Bilateral relations with the United States are brittle. In the 1990s, the United States
suspended diplomatic relations over Sudan’s support for transnational terrorism. An assault on
the U.S. embassy in September 2012 caused more than $2 million in damages and led to an
ordered departure of many embassy personnel and all eligible family members (EFM), leaving
the embassy with about half of its normal staffing of U.S. direct-hire personnel.

        Sudan hosts 140,000 refugees from surrounding states, which in turn host about 500,000
refugees from Sudan, including 240,000 from Darfur. Internally displaced persons in Sudan
number 4.2 million. The U.S. Government donates more than $300 million in humanitarian
assistance annually. Continued fighting in Southern Kordofan and Blue Nile and tension in the
Abyei area continue to lead to new streams of internally displaced persons. Today, 44 percent of
USAID’s funding in Darfur is dedicated to community-based early recovery programs, up from
zero in 2009—a powerful illustration of how needs are changing.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The chief of mission arrived in June 2012 as permanent chargé d’affaires (CDA) of an
embassy that deals with life and death issues and has the attention of the most senior levels of the
U.S. Government. He coordinates a far-flung development and humanitarian assistance program
that exceeds $300 million. Embassy Khartoum also provides management services to Embassy
Juba in South Sudan. The CDA’s 1-year assignment to Sudan was recently extended for a second
year. He leads a policy of pragmatic engagement that places a premium on public outreach to
counter the brittle nature of U.S. relations with Sudan. [Redacted] (b) (5)       .

Embassy Assault and Ordered Departure

       The signal event for Embassy Khartoum in 2012 and 2013 was an assault on the embassy
in September 2012 and the subsequent ordered departure. Animated by an online video allegedly
offensive to Muslims, Sudanese demonstrators moved against the German, British, and U.S.
embassies on Friday, September 14, 2012. Embassy defenders successfully prevented
demonstrators from entering the compound. Following the attack, the embassy management
team went to work immediately, welding steel plates over shattered windows. The Department
shipped new doors, windows, and security equipment. The management team, led by the acting
deputy chief of mission, took immediate steps to evacuate embassy employees and family
members. Many of the evacuees were sent to [Redacted] (b) (5)
                                                          The Department ordered a second
drawdown of personnel after a facility 7 kilometers from the embassy was allegedly bombed on
October 22. By mid-October 2012, embassy leadership was asserting that security was no worse
than before the September demonstration and recommended that the Department allow
additional staff to return. The ordered departure finally ended March 13, 2013.

        Because of the ordered departure, the U.S. Government has been unable to pursue policy
and program goals effectively in Sudan, despite commendable efforts by the embassy’s
remaining staff. For more than 5 months, there was no U.S. direct-hire employee to provide
oversight of $300 million in humanitarian relief funds for internally displaced populations of
Sudan. There was limited oversight for development programs of $23 million. Embassy political
and economic officers, drawn down to less than a third of their previous numbers, were unable to
provide needed levels of advocacy of U.S. views on the late September 2012 series of
implementing agreements to the Comprehensive Peace Accord between Sudan and South Sudan.
In the absence of a full-time consular officer, the embassy scaled back consular services sharply,
most notably American citizens services.

        A second consequence was increased uncertainty among embassy employees about their
future. The Department’s decision to use [Redacted] (b) (5)           increased the perception
that there could be an early end to ordered departure. Yet the Department extended the ordered
departure on a monthly basis.

       Had the Department issued earlier and clearer statements telling evacuees to plan for an
ordered departure of 180 days, [Redacted] (b) (5)                and other Washington agencies
could have exercised better oversight of their programs. Evacuees heard conflicting messages
from various offices about a possible return to post, [Redacted] (b) (5)            .

                                        3
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

    Policy Coordination

            Embassy Khartoum has smooth intersection and interagency coordination. Country team
    meetings were increased from once to twice per week to foster better coordination during
    ordered departure. The emergency action committee meets frequently. Inspectors sat in on many
    meetings that demonstrated collegiality and effectiveness in achieving mission goals, including
    an early tasking session on the FY 2014 Mission Resource Request.1 Shortly before the
    inspection team arrived, the country team conducted an offsite to develop a common vision of
    Embassy Khartoum staffing to guide the mission out of ordered departure and into the future.
[Redacted] (b) (5)




    Recommendation 1: [Redacted] (b) (5)



            A new deputy chief of mission arrived December 2012. He is a strong advocate and
    supporter of the CDA’s decisions. The deputy chief of mission is also thoughtful about how to
    handle personnel and management problems and is willing to take action on difficult issues.
    Inspection questionnaires and conversations with embassy staff show he is having a positive
    effect on staff perceptions of embassy leadership and is improving communication with evacuees
    and staff.

            With most of the entry-level officers withdrawn because of ordered departure, the
    embassy does not have an active entry-level officer mentoring program. The deputy chief of
    mission and management counselor are working to put a program in place in preparation for a
    return to full staffing.


    1
      In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
    Resource Plan. The Mission Resource Request (3-year strategic plan, with shorter annual resource requests)
    replaced the Mission Strategic and Resource Plan beginning with the FY 2014 budget cycle.
                                                4
                                   SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Office of the U.S. Special Envoy for Sudan and South Sudan

        S/USSESSS includes the Department’s desks for Sudan and South Sudan and works on
both Comprehensive Peace Agreement implementation and bilateral issues, such as human
rights. Embassy Khartoum reporting officers understand the broad outlines of U.S. policy toward
Sudan, but many are unsure of embassy priorities for engagement with the Government of
Sudan. A number of reporting officers feel mission leadership defers virtually every decision to
S/USSESSS. S/USSESSS reports that it provides information by email and regularly scheduled
weekly calls and video conferences. Many officers indicate that S/USSESSS communication on
programs it funds has improved over time but is still inadequate. Others feel S/USSESSS does
not provide sufficient information on policy or solicit embassy input. Some officers cite
frustrating instances of duplication of effort when, for example, they would call a contact to get
information to provide to S/USSESSS, only to find out the contact had just spoken with a
S/USSESSS official. The OIG team found similar issues at Embassy Juba and documented the
problem in that inspection report.2

Strategic Planning

       Before ordered departure, the embassy did not have a mission reporting plan, working
groups supporting mission strategic goals, or a representation plan. Section and agency staff
members were collegial and shared information freely but were not able to focus efforts to
advance key priorities.

          Informal Recommendation 1: Embassy Khartoum should issue a mission reporting
          plan.

Equal Employment Opportunity

       The embassy nominated and requested training for the current Equal Employment
Opportunity (EEO) counselor shortly after her arrival in summer 2011. During her tenure, there
have been no specific allegations that require followup. The EEO LE staff liaison retired from
the embassy and has not been replaced.

       The only publicly displayed EEO information is a poster from 2010, near an embassy
lunchroom. The people mentioned in the poster no longer work at the embassy. The last EEO
announcement on the embassy Web site is dated March 6, 2012. The announcement is not
available in Arabic. EEO issues have not been discussed at any town hall meetings in recent
memory. According to the Locally Employed Staff Handbook chapter entitled “Equality in the
Workplace,” this policy was issued on November 22, 2004.

          Informal Recommendation 2: Embassy Khartoum should appoint and offer training for
          an Equal Employment Opportunity locally employed staff liaison.

          Informal Recommendation 3: Embassy Khartoum should post and publicize up-to-date
          information on the Equal Employment Opportunity counselor and program rules and
          regulations.

2
    Inspection of Embassy Juba, South Sudan, Report Number ISP-I-13-29A, May 2013.
                                             5
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Advocacy and Outreach

        Even before ordered departure, the embassy was limited in its ability to engage with
Sudanese Government officials due to a host of factors, including International Criminal Court
indictments of key officials, economic sanctions, the Ministry of Foreign Affairs refusal to
authorize meetings, and host government refusal to issue travel permits. Many Sudanese officials
in regular contact with S/USSESSS are reluctant to meet with embassy employees or speak with
them by telephone.

         The embassy began reaching out in 2012 to sectors other than the government. The
outreach was labor intensive, but both American and LE staff members were encouraged by
initial results and interested in expanding efforts. Although ordered departure halted budding
cooperation with the Sudanese Government on trafficking in persons and other promising
initiatives, the embassy continued its outreach efforts during this challenging period.

         Language Designated Positions: Arabic language proficiency is becoming increasingly
important. Although most mission contacts who are older than 45 speak English well, many
younger contacts do not, due to policies that discouraged English language use following the
1989 coup. Officers cannot conduct effective policy advocacy and outreach in Sudan without the
ability to speak Arabic at the general professional proficiency (level 3) or better; only a handful
of officers currently speak Arabic at the limited working proficiency (level 2) or better. Only two
consular positions and one political/economic position have a required speaking level, which is
level 2 in all three cases. In 2009, three of the 10 positions in the political/economic section were
language designated. Embassy senior management recognizes the need for more officers with
stronger Arabic skills but is concerned that increasing the number and level of language
designated positions will reduce the number of bidders, given the typical 2-year timeframe to
achieve level 3 speaking and reading proficiency. The inspection team found that at least four
positions require higher levels of Arabic.

Recommendation 2: The Bureau of Human Resources, in coordination with Embassy
Khartoum, should designate public affairs officer position number 60127000 and FS-03
political/economic officer position number 10088152 at the speaking level 3/reading level 3 in
Arabic and designate assistant public affairs officer position number 60127005 and one of the
FS-04 political/public affairs officer positions at the speaking level 2/reading level 2. (Action:
DGHR, in coordination with Embassy Khartoum)

        Contact Management Database: The embassy keeps contact information in multiple
Microsoft Outlook templates. Sections and agencies update spreadsheets for each event, which is
inefficient. The embassy cannot search for categories of contacts, such as all contacts from a
certain region. The embassy has the Contact Management Database, but staff members do not
use it.

       Informal Recommendation 4: Embassy Khartoum should implement a policy requiring
       staff to use the Contact Management Database.


                                         6
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Reporting and Analysis

        The ordered departure decreased the number of political/economic reporting officers
from nine to two, reducing the section’s ability to track and report on issues consistently over
time. During the first month of ordered departure, the CDA focused the embassy on essential
security matters. Washington’s demands for information and the mission’s interest in being
responsive led to increasing pressure to conduct “business as usual” with only two
political/economic officers. A political/economic staff meeting during the inspection covered a
range of reporting and outreach far broader than expected for an embassy on ordered departure.
The inspection team concurs with Washington consumers’ assessment that the section has done
an admirable job with spot reporting, relaying information on quickly evolving issues in a timely
and useful manner.

       The Department did not excuse Embassy Khartoum from submitting mandatory reporting
during ordered departure. Although Department bureaus extended deadlines for submitting
mandatory reports, bureau personnel did not assist in preparing initial drafts. In many cases,
evacuated staff prepared these drafts, which eased the burden on officers who remained behind.
However, embassy officers still had to review the drafts, which distracted them from essential
functions that can be carried out only on the ground.

       Informal Recommendation 5: Embassy Khartoum should request support from the
       Office of the U.S. Special Envoy for Sudan and South Sudan to complete mandatory
       reporting until the number of embassy reporting officers returns to normal levels.

         In addition to front channel cables, Embassy Khartoum provides S/USSESSS with a
significant amount of reporting by non-record email. Group lists of recipients cannot encompass
the full range of interested U.S. official consumers. Cables are the official record of Department
policies, program activities, and operations. Although email may be more convenient, cables and
record messages are disseminated widely and can be searched and accessed from many official
locations. At the suggestion of the inspection team, some political/economic employees started to
use the State Messaging and Archive Retrieval Toolset record message email to send non-front
channel reporting. This measure will greatly facilitate record archiving. The embassy did not
archive records in 2012, in part because it shredded almost all its records to reduce holdings in
response to a security threat. Proper archiving of records makes information available in the
future for policy analysis and archival research.

       Informal Recommendation 6: Embassy Khartoum should require appropriate personnel
       to take record email training, such as PS 530, offered online by the Foreign Service
       Institute.

        Washington analysts and program managers would like more information from the
embassy on conflict areas and refugees so that they can better anticipate, report on, and plan for
humanitarian crises. Embassy Khartoum political/economic section staff members use a broad
network of contacts to corroborate reports of conflict and humanitarian need, email daily incident
reports, and they have started an annotated summary. Valuable data are also available in informal
media and substantive and programmatic reports, including trip reports and contractor updates.
However, little of this information is available outside the section and S/USSESSS. S/USSESSS
maintains a database of incidents in Darfur, but the Department does not maintain a database of
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

incidents in Sudan and South Sudan. The Bureau of Intelligence and Research can advise how to
create such a database, with content from the Bureau of Population, Refugees, and Migration and
USAID. Information from this database would allow U.S. officials to plot incidents on static or
interactive maps and to view trend lines over time, increase understanding of emerging crises,
and give the emergency action committee more comprehensive data to inform decisions on travel
of mission personnel to Darfur and elsewhere. To prevent the raw data from being taken out of
context, the embassy could note when analysts need to contact the originating agency or section
before using the data in a report.

Recommendation 3: The Office of the U.S. Special Envoy for Sudan and South Sudan, in
coordination with Embassies Khartoum and Juba, the Bureau of Intelligence and Research, and
the Bureau of Population, Refugees, and Migration, should create a database of humanitarian and
conflict-related incidents in Sudan and South Sudan. (Action: S/USSESSS, in coordination with
Embassy Khartoum, Embassy Juba, INR, and PRM)

       Embassy Khartoum has contacts that travel to South Sudan and report on issues related to
South Sudan and the border area. The political/economic section clears less of this reporting with
Embassy Juba than it did in 2012. There is no common agreement between the embassies on
how to coordinate outreach and reporting. The CDA agreed to raise the issue during his
upcoming trip to Juba.

       The embassy has a designated biographic information coordinator and includes
biographic information in many of its cables. The political/economic section has almost 150
well-formatted biographies saved on its shared drive that include useful insights into important
Sudanese figures and foreign diplomats. Other sections could, but do not, contribute information
to them. Posting the biographies to Diplopedia would make them accessible to the Department
and other posts.

       Informal Recommendation 7: Embassy Khartoum should post biographic information
       on Diplopedia once staff levels permit.

Political/Economic Section

        Although the Department has significant refugee and humanitarian programs in Sudan,
the political/economic section has not dedicated a reporting officer to focus on related policy
issues, including obtaining humanitarian access, and to monitor Department-funded programs. In
FY 2012, the Bureau of Population, Refugees, and Migration provided $34.2 million for
programs benefitting refugees, internally displaced persons, and potentially stateless persons in
Sudan; many of these populations received complementary assistance from USAID-funded
programs totaling $260.6 million. Visa problems and the security situation have prevented both
the Ndjamena-based regional refugee coordinator, who covers Darfur, and the Addis Ababa-
based regional refugee coordinator, who covers the rest of Sudan, from traveling to Sudan. The
Embassy Khartoum human rights officer, who also covers refugee issues, has had no formal
training on how to monitor and report on refugee programs or coordinate them effectively with
USAID-funded programs. The OIG team inspecting Embassy Juba identified the need for an
officer to focus on refugee and other humanitarian programs there as well. The Bureau of
Population, Refugees, and Migration is willing to train and provide ongoing policy support to
refugee and humanitarian affairs reporting officers. The bureau cannot determine whether it
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

would be beneficial to establish an additional refugee coordinator position in Khartoum or
elsewhere until it is clear the Government of Sudan would permit the coordinator to travel as
required.

Recommendation 4: Embassy Khartoum, in coordination with the Bureau of Population,
Refugees, and Migration and the Bureau of Human Resources, should convert FS-02 economic
officer position 01801005 to a refugee and humanitarian affairs officer position until the Bureau
of Population, Refugees, and Migration determines whether creating a Khartoum-based refugee
coordinator position is warranted. (Action: Embassy Khartoum, in coordination with PRM and
DGHR)

        The section has nine U.S. direct-hire positions. The section had 10 positions in 2009 and
2010, when it covered South Sudan and was supporting a higher level of activity on the part of
the U.S. Special Envoy for Sudan and South Sudan (Special Envoy). Before ordered departure,
the section had a top-heavy structure of two teams, with FS-02 officers loosely coordinating an
FS-03 and an FS-04 officer. Workload and high-profile issues were not divided evenly. The
deputy and an entry-level officer did not have clearly defined portfolios, leading to tension and
inefficiency. All but one political/economic officer acknowledged that the section was
overstaffed by one FS-02 and at least one FS-03 or FS-04 position. The OIG team suggested that
the section restructure itself with an FS-01 political head, an FS-02 economic deputy, an FS-02
refugee and humanitarian affairs reporting officer, and two teams of FS-03/FS-04
political/economic officers supported by the five LE staff members and one office management
specialist.

Recommendation 5: The Bureau of African Affairs, in coordination with the Bureau of Human
Resources, should move an FS-04 or FS-03 political position from Embassy Khartoum to
Embassy Juba’s political/economic section to work on refugee and other humanitarian programs
or eliminate the position. (Action: AF, in coordination with DGHR)

        The five LE staff members are well informed, motivated, proficient in English, and work
collegially with one another and with LE staff from other sections. Some exhibited impressive
resourcefulness and initiative, including proposing creative ways to verify critical information or
advance key policy interests. They are already doing significant drafting but would be even more
productive if officers specified what products each LE staff member is responsible for drafting.
The section has frequently, but unsuccessfully, nominated LE staff members for training to
improve their writing and tradecraft skills.

       Informal Recommendation 8: Embassy Khartoum should establish reporting
       requirements for locally employed staff members in the political/economic section and
       continue efforts to secure training for them.

Foreign Assistance Management

       There is significant U.S. Government assistance to Sudan, including the more than $300
million USAID manages from the embassy. However, Embassy Khartoum is responsible for
managing very few Department assistance programs in Sudan because of the economic
sanctions. The difficulty of getting visas makes it impractical for Washington-based officials to
monitor programs.
                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Grants Management: Two political/economic section officers were designated as grants
officer representatives (GOR) for African Women’s Peace and Security-funded grants. The first
grant, managed by the Bureau of African Affairs, is for $111,900 and was awarded in September
2012. The GOR for the first grant departed in September 2012 and has not returned. Embassy
Khartoum did not have the grants file for the inspection team to review. The bureau has agreed to
designate an LE staff member as the GOR.

         The second grant, for $470,000 over 2 years, was awarded in September 2011 and is
managed by the Office of Global Women’s Issues. Before ordered departure, the GOR and LE
staff assistant GOR met with the grantee every 4 to 6 weeks to monitor progress. Since ordered
departure, the GOR and LE staff assistant GOR have made only one monitoring trip. Given the
section’s reduced staffing, the Office of Global Women’s Issues agreed to designate the LE staff
member as the GOR. The grant funds salaries and office costs, making it unlikely that funded
activities will be sustainable. The grantee provided only notional ideas of how activities could be
sustained after funding terminates; monitoring reports include no mention of sustainability. The
grantee reportedly focuses the lion’s share of funding on its graduates. The Foreign Assistance
Effectiveness Principles in the Quadrennial Diplomacy and Development Review emphasize the
importance of incorporating sustainability into project design.

Recommendation 6: The Office of Global Women’s Issues, in coordination with the Office of
the U.S. Foreign Assistance Resources and Embassy Khartoum, should prepare a sustainability
plan for the $470,000 African Women’s Peace and Security grant in Sudan. (Action: S/GWI, in
coordination with F and Embassy Khartoum)

        Leahy Vetting: The embassy vetted only one candidate in 2012 and no candidates as of
the end of February 2013. In February 2012, a humanitarian demining program implementer in
Sudan provided names of eight seconded military personnel who began working in September
2011 on a program managed by the Office of Weapons Removal and Abatement in the Bureau of
Political-Military Affairs. The Bureau of Democracy, Human Rights and Labor instructed the
embassy not to vet the eight candidates, in keeping with the bureau’s policy of not vetting after
the fact.

        Trafficking in Persons: Sudanese Government officials are willing to work with the U.S.
Government to address common concerns about trafficking in persons. For example, hundreds of
Ethiopians and Eritreans are being trafficked through Sudan to Egypt and the Middle East. It is
not clear that existing sanctions would prohibit all funding on these issues. Department of Justice
program officers have indicated willingness to engage if this cooperation were allowed and funds
were available.

       Informal Recommendation 9: Embassy Khartoum should request guidance from the
       Office of the Legal Adviser to determine whether it is acceptable under the current
       sanctions regime to provide funding to prevent trafficking in persons in Sudan.

Public Diplomacy

        PAS manages a range of traditional activities, though the nature of the bilateral
relationship creates limitations. The section normally consists of a public affairs officer (PAO)
and an assistant PAO, with nine LE staff members. The PAO and assistant PAO have rotated in
                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

and out of the country since ordered departure began in September 2012. The assistant PAO, an
entry-level officer, is not expected to return. The section now operates with seven LE staff
members.

More Credit Where Credit Is Due—Strategic Planning

        USAID does not have a PAO in Sudan, and PAS is not well informed about USAID
programs. The Sudanese public does not know about the many positive contributions the United
States is making in Sudan. The embassy’s ability to publicize its activities is severely limited. Its
work is complicated by reduced staff, poor bilateral relations, the difficulty of obtaining visas for
regional public diplomacy support officers and cultural envoys, and Sudanese policies that
discourage English language use. The absence of American spaces or Corners and the closure to
the public of the Information Resource Center (IRC) have been additional obstacles. The French,
Germans, and Chinese all have public venues in downtown Khartoum, where they run cultural
and other programs.

         Though relations between the two countries continue to deteriorate, in a November 2012
memorandum to the Under Secretary for Press and Public Diplomacy entitled “Public Diplomacy
Engagement with Sudan,” S/USSESSS stated, “Our current public diplomacy engagement
initiatives have been well received…there is great potential to increase and enhance our outreach
efforts….”

Recommendation 7: Embassy Khartoum should implement a mission media plan to inform the
Sudanese public of the extent of U.S. Government assistance and of the efforts of the embassy.
(Action: Embassy Khartoum)

Section Management

        Despite formidable obstacles, section morale is good. Senior LE staff members have been
with the embassy since the 1980s, when relations were better and there was an American cultural
center downtown. They are supportive of younger colleagues who bring a greater knowledge of
information technology the target youth audience uses. The PAO is a good public speaker, and
his instructions to staff members are clear and concise.

        Under ordered departure, the IRC, located on the embassy compound, was closed to the
public. The embassy is located outside the city, far from public transportation. The IRC director
is a professional librarian who has good connections with library associations, academics,
journalists, and teachers of English. The IRC director’s position description indicates that he
prepares analytical reports; writes briefs on special IRC programs; and designs information
profiles for parliamentarians, government officials, senior civil servants, and other policymakers.
The director has never posted an annual IRC plan to the IRC knowledge database, a standard
practice. The PAO has not worked with the information resource officer, based in Nairobi, to
revise the IRC director’s position description and make full use of his talents.

       Informal Recommendation 10: Embassy Khartoum should revise the Information
       Resource Center director’s position description.


                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The information resource officer who supports Embassy Khartoum has not yet visited
due to his multicountry responsibilities and the difficulty of getting a visa to enter Sudan. PAS
will soon launch the opening of an American Corner in the city of Port Sudan as well as a
reading room and a self-access center at the University of Khartoum. An information resource
officer visit would assist the PAO in his efforts to expand outreach.

Recommendation 8: The Bureau of International Information Programs should fund a visit to
Khartoum by the information resource officer who covers Sudan. (Action: IIP)

        PAS can use social media to reach out to a younger audience with appropriate messages.
The information assistant recently hired to work with social media also is responsible, in
cooperation with a colleague, for media reaction cables. Because the information assistant’s
focus will be on increasing the embassy’s use of social media, he would benefit from further
training.

       Informal Recommendation 11: Embassy Khartoum should provide additional social
       media training to the public affairs information assistant.

Regional Educational Advising Coordination

        The PAO correctly identifies higher education as important to improving ties between the
United States and Sudan. Prior to ordered departure, the embassy’s EFM educational advisor was
providing effective outreach and counseling to prospective students, as evidenced by growing
numbers of Sudanese studying in U.S. colleges and universities. At the time of the inspection,
the educational advisor was out of the country and not expected to return. The needs of
prospective students are not being served. The current regional educational advising coordinator
for Sudan, based in Accra, has not yet been to Khartoum, despite the requirement in 10 Foreign
Affairs Manual (FAM) 227.8-6. For the long term, Embassy Khartoum will not be able to meet
student needs without a resident educational advisor.

Recommendation 9: The Bureau of Educational and Cultural Affairs should fund a visit by the
regional educational advising coordinator for Sudan to Embassy Khartoum to promote U.S.
higher education. (Action: ECA)

       Informal Recommendation 12: Embassy Khartoum should hire a locally based
       educational advisor.

Fulbright

        Embassy Khartoum has reintroduced the Humphrey Program to Sudan and is currently
working with the Bureau of Educational and Cultural Affairs to relaunch the Fulbright Program.
There are several universities in Khartoum from which PAS is looking to recruit Sudanese
Fulbright students. As the Department’s flagship academic exchange program, Fulbright
deserves a prominent place in Sudan. PAS and the bureau are working to recruit a U.S. academic
specialist to travel to Sudan within the next few months to assess Sudanese institutions and their
capacity for hosting U.S. Fulbright students. PAS and the Bureau of Educational and Cultural
Affairs have also consulted about facilitating Fulbright administration training at another Bureau
of African Affairs post for Khartoum’s cultural affairs specialist.
                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Khartoum, should send a specialist to Khartoum to complete a Fulbright Program needs
analysis. (Action: ECA, in coordination with Embassy Khartoum)

Sports

        PAS has not sponsored sports diplomacy programs for at least 5 years, due to the
difficulty of getting visas. As the section looks to the future, it would be beneficial to develop a
plan to bring in sports envoys.

Recommendation 11: Embassy Khartoum, in coordination with the Bureau of Educational and
Cultural Affairs, should develop a plan to bring sports envoys to Sudan. (Action: Embassy
Khartoum, in coordination with ECA)

Grants Management

       PAS issues grants for small projects (often less than $1,000) that are for 1-day seminars
on specific topics, such as Earth Day, HIV/AIDS awareness, and intellectual property rights.
Grants files are not always complete and sometimes lack terms and conditions beyond the DS-
1909 Federal Assistance Award form. The new PAO will issue new, larger grants ($40,000 to
$50,000) for an American Corner in Port Sudan and for the English language center at the
University of Khartoum. Proper grants management depends upon complete and accurate
documentation, including GOR letters, evidence of monitoring expenditures, grants deadlines,
and final reports.

Recommendation 12: Embassy Khartoum should close all grants files with accurate and
complete documentation. (Action: Embassy Khartoum)

American Spaces

         In the 1980s, there was a U.S. cultural center in downtown Khartoum. Given the current
security situation and budget realities, Embassy Khartoum cannot reestablish a full-fledged
facility downtown. Without some kind of platform downtown, however, PAS will be restricted in
its ability to convey information about U.S. society and values. An American Corner does not
have the stringent security requirements of a cultural center staffed by direct hires.

Recommendation 13: Embassy Khartoum, in coordination with the Bureau of International
Information Programs, should develop a plan to establish an American Corner in Khartoum.
(Action: Embassy Khartoum, in coordination with IIP)

Consular

       Embassy Khartoum provided only limited consular services for a number of years, with
Embassy Cairo processing visa services for Sudan. In 2010, the consular section began issuing
nonimmigrant visas, although Cairo still handles Sudanese immigrant visas. During ordered
departure, Embassy Khartoum limited its services to critical American citizens services and
nonimmigrant visas for officials, embassy referrals, U.S. Government-sponsored grants, and
embassy employees on official business.
                                        13
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        When fully staffed with two full-time consular officers, seven LE staff members, and one
EFM, the section can easily handle the normal workload. During ordered departure, the
Department recalled both consular officers and the EFM, leaving entry-level officers from the
political/economic section to provide limited consular services and supervise the consular LE
staff. Shortly before the inspection, the Department authorized the return of the consular chief,
whose strong leadership has helped the section resume full American citizens services, although
visa services remain limited.

        [Redacted] (b) (5), [Redacted] (b) (6)




        The lack of direct supervision was significantly more problematic during the period when
there was no full-time consular officer at the embassy. The entry-level political/economic
officers handled difficult tasks well but typically spent only 1 or 2 hours a day in the section.
[Redacted] (b) (5)



                                                                              The consular
officer has remedied both problems since her return; however, there are no standard operating
procedures to prevent a similar problem in the future.

Recommendation 14: Embassy Khartoum should implement standard operating procedures for
appropriate American officer oversight and supervision of consular operations and the use of
controlled items. (Action: Embassy Khartoum)

        The high number of security advisory opinions complicates the embassy’s nonimmigrant
visa workload, and American citizens services cases are often urgent and complex. However, the
current staff of six local employees is more than adequate to handle the workload. Embassy
Khartoum is interested in taking over Sudan’s immigrant visa workload from Cairo and has
sufficient staff and space to do so, making it unnecessary to fill the one vacant consular LE staff
position.

Recommendation 15: Embassy Khartoum, in coordination with the Bureau of Consular Affairs,
should review local employee staffing levels and eliminate position A30105. (Action: Embassy
Khartoum, in coordination with CA)

       The section’s workspace and public areas are large enough for the current workload. The
only access from consular work areas to the consular waiting room, however, is by exiting the
building and then entering the waiting room through the main public entrance. This configuration
does not provide consular staff with quick and convenient access from the consular work areas to
the public entrance and waiting areas. A door connecting the consular waiting room to the lobby
would allow the necessary access but lacks appropriate hardware. The installation of a handle on
the lobby side of the door would solve the problem.
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 16: Embassy Khartoum, in coordination with the Bureau of Overseas
Buildings Operations, should install hardware on the door connecting the consular waiting room
and the chancery lobby to provide access to the consular waiting room in an emergency. (Action:
Embassy Khartoum, in coordination with OBO)

        The section has two issues pending in the nonimmigrant visa system that require
guidance from Washington. During the abrupt suspension of nonimmigrant visa services in
September 2012, a number of online applications were submitted but not processed. The
consular chief closed these cases in the system immediately after her return, but the large number
of closed cases makes Khartoum’s refusal rate appear much higher than it actually is. At about
the same time, the section also began a project to delete duplicate and other open cases from the
system. The deleted cases number in the thousands, which seems excessive given that Khartoum
has been processing nonimmigrant visas only since 2010.

       Informal Recommendation 13: Embassy Khartoum should review recent refusals and
       deletions, seek guidance from the Bureau of Consular Affairs, and take any additional
       action needed to make Khartoum’s visa records complete and accurate.

         The regional consular officer in Cairo is responsible for Khartoum but has been unable to
visit the embassy since 2010, due to difficulties in obtaining a Sudanese visa. The resumption of
regular regional consular officer visits would enable the section to maintain a high quality of
service.




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
           Agency                 U.S. Direct- U.S. Local-       Foreign      Total         Total
                                   Hire Staff   Hire Staff       National     Staff        Funding
                                  (authorized) (authorized)       Staff                    FY 2012
Department of State
Diplomatic and Consular
Programs/Consular                            39               1          25       65        $3,250,300
International Cooperative
Administrative Support
Services                                      7               7        541       555       $17,127,100
Public Diplomacy                              2               1           8       11         $618,900
                   *
Diplomatic Security                           7               0          47       54       $11,159,600
Marine Security                               6               0           3        9           $95,300
Representation                                                                     0           $42,200
Overseas Buildings Operations                                                      0        $2,555,500
Department of Defense
Defense Attaché Office                        5               0           3           8       $221,000
Office of Defense Cooperation                                             2           2      $160,000
Other                                                                                 0
Centers for Disease Control
and Prevention                                                                     0
USAID**                                      15               0          35       50      $294,550,518
Totals                                       81               9        664       754      $329,780,418
*Includes funding for Embassy Juba.
**Includes eight U.S. direct hires and seven personal services contractors.

General Management

        The ordered departure disproportionately affected the management section, which lost its
human resources, financial management, and facilities management officers, as well as one
information management and two general services officers. Remote assistance, automated
systems, competent LE staff, and long hours of work by the remaining U.S. direct-hire
employees have reduced the ordered departure’s impact on routine operations and internal
controls. Consolidation of the embassy in 2010 on a new office compound is also advantageous.
With fewer American employees and family members at the embassy during ordered departure,
International Cooperative Administrative Support Services (ICASS) providers consistently met
customer demand in most areas. OIG survey results were generally high, with 36 of 50
management area scores exceeding 4 points out of a possible 5. However, the OIG team
identified several deficiencies [Redacted] (b) (5)  that require attention.

       The ordered departure has disrupted some aspects of management operations. Early in the
process, mixed messages and guidance from different offices in the Department caused some
confusion and made rumor control difficult. [Redacted] (b) (5)                  as the future

                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

remains unclear. Lingering uncertainty regarding the continuation of ordered departure has
complicated longer-term management planning. For example, the embassy soon will bring into
service a 38-unit housing compound and must decide the disposition of existing leases without
knowing the future staffing of the mission. Given the cost of leases and the time and expense of
security upgrades, the decision could bear significantly on management workload and costs to
the U.S. Government.

Regional Support

        Embassy Khartoum provides regional support to Embassy Juba in human resources,
financial management, and some general services areas. The relationship, scope of services, and
processes are ill defined. The ordered departure of Embassy Khartoum exacerbated the situation.
The Bureau of African Affairs and the two embassies have discussed transition of services to
another post but have not devised a plan for the smooth transfer or improvement of services.
Embassy Khartoum therefore retains responsibility for several aspects of Embassy Juba
management services and is resourced with additional funding and personnel to provide these
services.

         Neither embassy is satisfied with the relationship nor sees any prospect for improvement.
In the meantime, Embassy Juba is paying ICASS charges for services that it believes are
substandard. Moreover, it has little leverage to effect improvement, as there is no memorandum
of agreement or other document that provides the framework or specifics of service. That
leverage and the ability to develop and implement a plan for management support of Embassy
Juba, which could involve other posts and domestic bureaus, lies with the Bureau of African
Affairs. An integral component of the plan would be appropriate reallocation of resources,
currently allotted to Embassy Khartoum, that enable support of Embassy Juba.

Recommendation 17: The Bureau of African Affairs, in coordination with Embassies Khartoum
and Juba, should implement a plan that identifies which posts will provide management support
to Embassy Juba. (Action: AF, in coordination with Embassy Khartoum and Embassy Juba)

Financial Management

       There are nine positions in financial management, headed up by a first-tour financial
management officer who arrived in July 2011 but has since curtailed while on ordered departure.
An experienced financial specialist, financial assistant, three voucher examiners, and a cashier
complete the staff. A second-tour financial management officer is assigned to Khartoum but is
not scheduled to arrive until summer. It would be prudent for the Bureau of African Affairs
Executive Office to consider providing temporary duty support during the gap.

         The OIG team reviewed unliquidated obligations for prior years and verified that all
contracts, grants, and purchase orders were current. One outstanding travel advance was settled
but still pending clearance of fiscal data. Premium class travel was not an issue, because it was
not authorized. An OIG inspector observed an unannounced cash verification that showed the
cashier’s accountability in balance and operations in order.




                                       17
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

International Cooperative Administrative Support Services Allotment

        Embassy Khartoum has excess funding in the ICASS allotment. In FY 2012, $3.6 million
was unliquidated, due in large part to year-end purchases totaling $7.8 million. The ICASS
carryover for FY 2012 was $657,200, which, according to the budget summary worksheet, the
embassy will use for bulk purchase of auto fuels and lubricants for vehicles. Use of ICASS
carryover for recurring expenses is prohibited by 6 Foreign Affairs Handbook (FAH)-5 H-432.1-
3. Carryover for the local guard program was $849,000, with an explanation of cost adjustments
due to local guard program target reduction. Prior year carryover for leases of $200,000 also was
not sufficiently justified. The OIG team understands that the $3.2 million requested to fund fully
the leases for the newly leased residential compound will come from OBO. The amount
requested for vehicle depreciation of $305,000 warrants review, as it is more common to request
vehicle replacement under object class 3100. There were also questionable funding requests for
vacant and EFM positions. The overall request for FY 2013 represents a $3.6 million increase
over the prior year that is not clearly justified. In accordance with 4 FAM 221.3, the financial
management officer is responsible for the control of funds made available to post. Embassy
Khartoum lacks procedures for periodic review of ICASS funds and budget requests.

Recommendation 18: Embassy Khartoum, in coordination with the Bureau of African Affairs,
should implement procedures to review funds balances in the International Cooperative
Administrative Support Services allotment at least quarterly and make adjustments as necessary.
(Action: Embassy Khartoum, in coordination with AF)

         A more involved and active budget committee would further improve embassy
management of its ICASS allotment. As required by 6 FAH-5 H-222.4-3, the committee would
oversee the budget process, conduct a detailed review of the budget, and recommend its
ratification to the ICASS council. The requirement for meeting minutes and formal
documentation of decisions and recommendations would increase transparency and provide a
permanent record of committee actions.

         Informal Recommendation 14: Embassy Khartoum should require the International
         Cooperative Administrative Support Services budget committee to fulfill its roles and
         responsibilities in accordance with Foreign Affairs Handbook requirements.

Cash Payments in U.S. Dollars

       Several officers received cash reimbursements for representation functions, travel
advances, and reimbursement. There is no consistent procedure for ensuring that U.S. dollar
reimbursements for representation functions and other payments to American employees are
made via electronic funds transfers to individual employee bank accounts in lieu of cash
payments. The Debt Collection Improvement Act of 19963 mandates that U.S. dollar payments
be made electronically and directly to individual employee bank accounts. According to 4 FAH-
3 H-391.1, all Department payments should be made by check or electronic funds transfer or
other noncash mechanism. Sound cash management principles mandate that there be limitations

3
 Pub. L. No. 104-134, Chapter 10, Section 31001, 110 Stat. 1321-358 (1996) (codified as amended in scattered
sections of 31 U.S.C. and other titles; see 31 U.S.C. 3701 note). The electronic funds transfer requirement is codified
at 31 U.S.C. 3332(f)(1).
                                             18
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

on cash advances to embassy cashiers. Current embassy practices place an excessive burden and
reliance on the cashier to make payments in cash, leading to an unnecessarily high cash advance
and associated risks of fraud and abuse.

Recommendation 19: Embassy Khartoum should implement a policy requiring that U.S. dollar
payments for reimbursement of representation expenses, travel claims, and travel advances for
American officers be made by electronic fund transfers to employee bank accounts. (Action:
Embassy Khartoum)

Representation Allowance Per Capita Limits

        The management policy on representation from October 6, 2011, is outdated. Embassy
management has not reviewed and updated the per capita rates to reflect more realistic amounts
based on prevailing costs. Per 3 FAM 3246.3 a. the chief of mission must establish dollar limits
for various types of representation activities.

       Informal Recommendation 15: Embassy Khartoum should reissue the management
       notice on representation allowances that describes procedures for submitting claims and
       update the per capita limits for various types of entertainment.

Official Residence Expenses

       Official residence expense vouchers include receipts in Arabic that were not translated
into English, as required per 4 FAH-3 H-394.2-9. b. (3), to identify the goods or services
procured and the purpose of the procurement.

       Informal Recommendation 16: Embassy Khartoum should translate receipts for official
       residence expenses.

Review of Certified Vouchers

        The management officer, acting as the financial management officer, is not conducting
quarterly reviews of payment vouchers certified by the alternate certifying officer as required by
4 FAH-3 H-065.2-2.

       Informal Recommendation 17: Embassy Khartoum should implement a procedure to
       conduct a quarterly review of vouchers certified by the senior Foreign Service national
       alternate certifying officer.

Human Resources

         A U.S. direct-hire officer leads the human resources office. He was on ordered departure
during the inspection. The LE staff consists of one specialist, five assistants, and one family
member employment coordinator. The management officer oversees American personnel
activities, such as following up on outstanding work requirements statements and ensuring that
employee evaluations are completed.


                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        There are no outstanding local compensation issues. Because of the worldwide salary
freeze, the last salary increase for LE staff was in December 2010. Under Sudanese labor law,
employees can take up to 440 hours of sick leave, a provision that some supervisors cite as a
challenge. At the time of the inspection, there were 77 vacant positions, 64 of which were local
guards. All position vacancy announcements are widely announced both within and outside the
embassy.

        The embassy’s local compensation plan states that, “[I]n Khartoum, the basic full
workweek is Sunday through Thursday.” Local guard force members and motor pool drivers,
however, normally work 6 days per week. Moreover, they work shifts that do not rotate, and
their 1 day off per week is fixed. Numerous employees view the system as inequitable. The OIG
team recognizes the operational necessity for some employees to work outside the normal
workweek and hours but also understands the validity of employee complaints.

       Informal Recommendation 18: Embassy Khartoum should implement a fair and
       equitable shift rotation plan for local guard force and motor pool drivers.

Eligible Family Member Employee Salary Overpayments

        When Embassy Khartoum went on ordered departure status, six family members were
employed as EFMs in the embassy. Upon departure, the EFMs continued to draw their salaries
because the embassy erroneously reported all their time and attendance as regular duty or
excused absence. The embassy discovered the error on January 4, 2013, and provided to the
American payroll office at Global Financial Services in Charleston a list of the EFMs and their
respective departure dates. The OIG team understands that all the affected EFMs—except for the
community liaison office coordinator, who continued to work from the Family Liaison Office in
Washington—were placed in inactive status pending the decision on whether they will return to
the embassy and continue working following ordered departure.

        Embassy Khartoum reports, however, that some employees continued to work or took
training during ordered departure. The embassy has not documented the time and attendance of
these employees in accordance with the Department’s management control standards on payroll
operations, contained in 4 FAH-3 H-519, and American payroll has not collected any
overpayments.

Recommendation 20: Embassy Khartoum should request, and the Bureau of the Comptroller
Global Financial Services should identify and collect overpayments to eligible family member
employees who were incorrectly maintained on the payroll following ordered departure. (Action:
Embassy Khartoum, in coordination with CGFS)

Post Language Program

        The embassy suspended its post language program during ordered departure, though
remaining American employees could benefit from the training to improve their Arabic language
proficiency. In fact, the Benghazi Accountability Review Board calls for the Department to
enhance its efforts to significantly upgrade its language capacity, especially in Arabic. Guidance
in 13 FAH-1 H-251.5 d. (1) gives the principal officer latitude to offer individual lessons to
employees with job-related needs whose duties conflict with class schedules.
                                       20
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

           Informal Recommendation 19: Embassy Khartoum should survey American employees
           with job-related needs for Arabic language training and offer lessons to meet their needs,
           including individual sessions.

        U.S. direct-hire employees rated the post language program lower than average on OIG
questionnaires. Employees criticized the lack of a conversational course, the noninteractive
lecture format, and the inflexible class size and timing. The OIG team noted three areas for
improvement. First, two officers are sharing language program responsibility, so there is no unity
of direction, effort, or management to develop a single, fully coordinated language program. The
post language officer should be empowered, for example, to terminate training when it has
become ineffective, in accordance with 13 FAM 231.2 (4) b. Second, the embassy is not taking
advantage of the Foreign Service Institute’s expertise to integrate classroom and distance
learning into the post language program and to identify a good curriculum for conversation. A
Foreign Service Institute expert could help the embassy develop materials for Sudanese Arabic,
which differs considerably from Modern Standard Arabic. Third, the program’s structure is not
effective. For example, analysis indicates that the embassy could hire a part-time, adequately
graded LE staff instructor who could offer training to smaller groups of students at half the cost
of the current contractor. Moreover, smaller class size would permit greater interaction; 13 FAH-
1 H-251.5 a. specifies there should be three to six students per class.

Recommendation 21: Embassy Khartoum, in coordination with the Foreign Service Institute,
should request a liaison from the School of Language Studies’ Arabic division to help revamp
the post language program. (Action: Embassy Khartoum, in coordination with FSI)

Time and Attendance Reporting

        Errors in reporting time and attendance for U.S. direct-hire employees related to starting
and stopping post differential, danger pay, and allowances have led to many cases of
overpayment of employees. There is lack of coordination and a central point of control for
reporting allowances. Employees are not adhering to the established embassy policy and
procedure, which explains that post differential is suspended during any travel to the United
States and that danger pay is stopped upon departure from post. The Standardized Regulations
Section 532 governs termination of post differential, and Section 654.2 covers danger pay.

         The embassy has advised employees of their responsibility to report accurately their time
and attendance to timekeepers, especially time spent in the United States on temporary duty, rest
and recuperation, or personal travel. The human resources office checks E2 Solutions4 to
ascertain when staff depart on official or rest and recuperation travel and prepares cables
suspending allowance payments with the effective date. However, employees do not always
inform the human resources office when they return to post or depart post on personal travel. The
main timekeeper deducts danger pay when informed of the person’s absence but does not always
know the return date. The timekeeper does not always share leave slips with the human resources
office to start or stop post differential. Consequently, many employees are overpaid for
allowances. The human resources office has submitted corrected cables for reporting post
differential, and the timekeeper has reported corrections to the time and attendance reports when
danger pay has not been suspended. Accordingly, there is a backlog in the American payroll

4
    The Department’s electronic travel management application.
                                             21
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

office at Global Financial Services in Charleston, with 43 overpayments for 27 employees that
are pending collection. The embassy has not issued instructions that explicitly state the
employee’s obligation to advise the embassy main timekeeper of any travel that requires
termination of post differential and danger pay.

Recommendation 22: Embassy Khartoum should implement procedures to terminate post
differential and danger pay when American personnel depart post on official and personal travel
and to restart allowances upon return to post and should reissue an administrative instruction
outlining the procedures and underscoring each employee’s responsibility to adhere to them.
(Action: Embassy Khartoum)

Hotel and Restaurant Survey

       Embassy Khartoum has not submitted a hotel and restaurant survey since October 2011.
The Department uses this survey to update lodging and meals and incidental expenses for per
diem rates. According to the Department’s Standardized Regulations post classification and
payment table (Section 920), Embassy Khartoum should complete the hotel and restaurant
survey in January of odd years or whenever there are substantial changes in hotel costs (Section
074.32). The current per diem rates of $305 for lodging and $138 for meals and incidentals
appear high compared to local prices.

Recommendation 23: Embassy Khartoum should submit an updated hotel and restaurant report
to the Bureau of Administration. (Action: Embassy Khartoum)

Locally Employed Staff Employee Performance Evaluations

         At the time of the inspection, there were 16 delinquent LE staff employee performance
reports. The human resources office tracks submissions of employee performance reviews and
sends regular reminders to supervisors. In accordance with 3 FAM 7584, the supervisor must
certify in writing that the employee’s performance is fully successful or better before a within-
grade increase may be authorized. Per 3 FAH-2 H-312 b. (6)(a), supervisors must prepare
objective and timely performance reports. Within-grade increases are sometimes delayed
because employee performance reports are late.

Recommendation 24: Embassy Khartoum should implement a plan for timely submission of
employee performance reports. (Action: Embassy Khartoum)

Training Plan

        There is no comprehensive training program for employees at Embassy Khartoum. The
human resources office tracks LE staff training needs based on the individual development plans,
but there is no systematic training plan or budget. There has been some training of American
staff. Department guidance in 3 FAH-2 H-312 b. (7) mandates establishing and maintaining
training programs, as needed, to enable employees to meet their work requirements and, to the
degree possible, to develop career potential. There is a Mission Sudan training policy, but no
plan for efficient and effective staff development. In addition, creating individual development
plans for each employee would allow managers and staff jointly to establish training goals to
improve employee job skills.
                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Khartoum should implement a training plan that is in line with
Mission Resource Request goals and objectives. (Action: Embassy Khartoum)

Post Orientation Program

       A formal orientation program can contribute to good morale, especially at embassies like
Khartoum, where security concerns and cultural sensitivities run high. The embassy’s human
resources office conducts a quarterly orientation for new U.S. and LE staff on personnel policies
and procedures, but there is no formal, overall post orientation for newly arrived Americans, as
required by 2 FAM 113.7-4. It is important that such briefings include an overview of the
embassy’s mission, local culture, and management section services, as well as briefings by
embassy sections and agencies.

       Informal Recommendation 20: Embassy Khartoum should establish a post orientation
       program for new U.S. direct-hire employees.

General Services

        OIG survey results indicated high levels of customer satisfaction with general services. A
reduction in U.S. direct-hire general services staff from three to one, however, has left the one
remaining assistant general services officer with a heavy workload that challenges his span of
control and oversight. He has also assumed facilities management and safety program
responsibilities. He is meeting these challenges well, but the OIG team identified a number of
areas for improvement. The embassy corrected some deficiencies on the spot.

Motor Pool Operations

         The motor pool provides round-the-clock services based on Khartoum’s status as a high-
threat post and the chief of mission requirement that all U.S. direct-hire employees ride in fully
armored vehicles. The motor pool meets these requirements by having its 38 drivers operate in 4
shifts. The embassy recently purchased 17 new vehicles, raising its current inventory to 127, and
has made progress in disposing of unneeded vehicles. Uncertain future staffing makes fleet
management difficult, but the embassy must be prepared to tailor the type and number of
vehicles when mission requirements become clearer.

        The motor pool is responsible for monitoring bulk fuel deliveries and the operation of the
vehicle fuel pump on the embassy compound. Standard procedure calls for the pump operator
and a receiving clerk to oversee jointly the delivery of fuel, including confirmation of amount
delivered and monitoring of the process. An electronic gauge located in the service compound
access control building displays levels in each of the three tanks. During the OIG inspection, the
general services officer oversaw a delivery, during which an LE staff member noted a
discrepancy of 400 liters between amounts shown as delivered and on the electronic gauge. The
embassy took immediate action to recalibrate the gauge and will monitor future deliveries so that
the gauge remains accurate. Internal controls appear to be adequate.

        The embassy’s strict reliance on armored vehicles underscores the importance of a robust
driver training program that meets Department guidance. Twenty-nine drivers have attended the
Bureau of Diplomatic Security’s armored vehicle driver training program, though many soon
                                       23
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

will be due for refresher training. Six newly hired drivers are scheduled to attend the program in
May 2013. The embassy is fulfilling the initial need for training but is not tracking drivers to
determine when refresher training is required.

Recommendation 26: Embassy Khartoum should implement a plan to comply with Department
of State guidance on completion of initial and refresher training for locally employed staff who
regularly operate armored vehicles. (Action: Embassy Khartoum)

        Motor pool drivers complete daily use records to meet the 14 FAM 436.1 requirement to
document trips, fuel, and vehicle condition properly. Some vehicle operators, such as those
assigned to the regional security office, are not complying with this requirement. The 2007 OIG
report noted a similar problem, which is a matter of operation, maintenance, safety, and internal
controls.

Recommendation 27: Embassy Khartoum should implement a plan for compliance with
Department of State motor vehicle operator maintenance and use responsibilities by all
employees who drive government-owned vehicles. (Action: Embassy Khartoum)

Property Management

        Embassy Khartoum’s 2012 Property Management Report showed an inventory shortage
of 1.16 percent, which was valued at $211,208. The 2013 inventory was underway during the
OIG inspection, and tentative results indicated shortages would again exceed the 1 percent level
and require a report of survey. The current missing items list shows a general improvement in
inventory control, but information technology equipment remains problematic. Additionally, the
property unit staff believes there are items in residences that do not appear on residential
inventories and are therefore unaccounted for. The lack of an accurate baseline inventory and a
system that accounts for information technology equipment will continue to cause property
accountability problems and create waste and fraud vulnerabilities.

Recommendation 28: Embassy Khartoum should establish an accurate baseline personal
property inventory and implement a plan for timely registration of information technology
equipment that is moved from one location to another. (Action: Embassy Khartoum)

        During 2012, Embassy Khartoum transferred to         [Redacted] (b) (5), [Redacted] (b) (6) items
with an acquisition value of $204,000, including furniture and furnishings, air conditioning units,
and vehicles. The resale value of these items could be significant. For example, the embassy
recently sold for $25,300 a vehicle that was 1 year older than, but similar to, the one it gave to
the school. The embassy is allowed to transfer property to a U.S.-sponsored school in accordance
with 14 FAH-1 H-715.2, but the embassy did not follow the required procedures, including
obtaining a memorandum from the school that lists the property needed, the name of the
requesting official, and an explanation of the need. There also was no indication that the embassy
considered the factors listed in 14 FAH-1 H-713 b. in determining the disposal method most
beneficial to the U.S. Government.

Recommendation 29: Embassy Khartoum should implement a property disposal procedure that
complies fully with Department of State regulations, including consideration of specific factors
to determine the method most beneficial to the U.S. Government. (Action: Embassy Khartoum)
                                         24
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        [Redacted] (b) (5)




Recommendation 30: [Redacted] (b) (5)



Procurement

        The chief of mission’s 2012 statement of assurance on management controls cited
procurement as an area with significant weaknesses. The statement also described the embassy’s
remediation plan, which included providing additional staff training, seeking the external
assistance of subject matter experts, and hiring a new supervisor with contracting experience.
The OIG team noted progress made by the procurement staff, which is generally knowledgeable
and capable. However, a spot check of procurement files revealed some errors. A recent
purchase card purchase totaling $16,688 did not follow proper procedures. A contract file for a
purchase that exceeded the contracting officer’s warrant did not contain documentation that the
embassy had received from the Department, stating that he was empowered to sign the contract.
[Redacted] (b) (5)
                                                                         Other deficiencies in the
supply chain management system are described in the Management Controls section of this
report. The OIG team recognizes the steps that the embassy is taking to address the shortcomings
in the procurement unit.

Leasing and Housing

        The embassy is consolidating its housing in compounds, which can be advantageous from
security, maintenance, and overall cost perspectives. A large component of this plan is the recent
lease of 38 units in the development known as the Presidential Village. The Bureau of Overseas
Buildings Operations approved the lease, but the embassy must request appropriate size and cost
waivers as it assigns employees to specific units. Combined with the 19 units that are located on
two other compounds, these additional properties should allow the embassy to house most of its
employees in one of the three complexes.

Facilities Management and Safety, Health, and Environmental Management

        The facilities management staff, even in the absence of a U.S. direct-hire manager,
appears to be functioning well. LE staff members are well trained and capable of maintaining the
new embassy compound systems. The embassy uses the Work Orders for Windows application
effectively for unscheduled and scheduled maintenance. At the time of the inspection, there were
no outstanding work requests. The safety program also functions well. The assistant post
                                         25
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

occupational safety and health officer is knowledgeable and is effectively managing program
components, such as driver safety training and compliance with safety and fire inspection
reports.

        The move to a new compound in 2010 has benefited the embassy. Enhanced security,
colocation of sections, and superior workspace are among the advantages. The facilities staff has
noted, however, that sections of the chancery building are settling, causing cracking in the
drywall that started on the first floor but has spread to the upper floors. The maintenance staff
has repaired the drywall, but questions remain, such as whether the cracking is related to a
structural, design, construction, foundation, or other problem, and what the effect will be over
the long term.

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Khartoum, should implement a plan to remediate the apparent settling or structural
problem related to the Khartoum chancery building. (Action: OBO, in coordination with
Embassy Khartoum)

        The embassy leases and staffs facilities in El Fasher, Darfur, that currently are not
approved for use due to security restrictions. The embassy estimates annual operating costs of
almost $250,000, which includes an LE staff of approximately 25 employees and lease, utilities,
and communications expenses. The properties were used a total of 63 days in 2011 and 56 days
in 2012. The embassy periodically assesses the access and use of the facilities based on
operational needs and security constraints. The OIG team was not able to visit these facilities
because of the fluid security environment, which has led to the suspension of official travel to the
region.

Information Management

       The information management office successfully meets the embassy’s information
technology needs despite being short staffed because of the ordered departure. The office has
provided uninterrupted emergency communications during recent civil disturbances. Professional
and technically competent American supervisors manage 13 local employees. The information
technology services provided by the information management office include an unclassified
network with approximately 243 workstations and 410 user accounts; a classified network; a
dedicated Internet network; radio, telephone and cell phone programs; classified and unclassified
pouch mail; and a satellite phone program.

        Information management programs have adequate resources that the section manages
effectively. The embassy maintains two off-site alternate command centers with emergency
communications systems that the staff keeps in excellent working order and tests in accordance
with Department standards. Khartoum networks consistently receive A+ ratings from the
Department’s network and systems monitoring software. Mailroom and security staff members
adhere strictly to Department procedures for screening incoming mail for dangerous items. The
OIG team provided counseling for personnel issues and use of individual development plans to
improve training opportunities for local staff. The team also identified several areas that require
management attention, including communication between management and staff, staff
development, and adherence to Department requirements for testing data recovery and
contingency plans.
                                        26
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Communication and Staff Development

        The information management section provides reliable support for embassy networks and
communications systems. The section handles trouble calls and outages promptly, and customer
service scores are either above the Department average or within the standard deviation in all
nine categories surveyed. Network technical services are generally good.

        A communications gap inhibits optimum performance, however. Although 11 of the 13
LE staff members and 2 American supervisors share the same office suite, there is lack of
communication between management and local employees. As a result, not all LE staff members
receive clear guidance or are included in section initiatives. The OIG team observed that the
section substitutes ad hoc meetings among smaller numbers of employees for more inclusive
regular section meetings. There are limited opportunities for LE staff to provide feedback to
management, depriving the section of the full benefit of local employee experience and training.
The OIG team counseled section managers about establishing a regular meeting in the
information management office to facilitate open communication and foster team spirit.

        LE staff member roles and responsibilities are not clearly defined. All four LE staff
members in the information systems center have the same grade, and none are assigned as points
of contact for specific responsibilities, resulting in duplication of effort and reduction in
operational efficiency. The LE staff does not receive clear guidance for daily and accountable
tasks, such as server maintenance, BlackBerry support, inventory management, laptop controls,
and consular systems. Assigning primary and backup duties for each LE staff member will
improve resource accountability, increase efficiency in responding to problems, and encourage
employee professional development. The OIG team stressed the importance of updating staff
work requirements in the information systems center to clarify specific primary and backup
roles.

Information Technology Contingency Testing

        The information management section has provided effective emergency communications
during recent crises. However, the section does not test data backup and recovery procedures for
the unclassified network in accordance with Department requirements in 12 FAM 622.3. Without
regular testing of these procedures, information management employees lack a clear
understanding of their roles in restoring important data according to embassy business priorities.
For effective contingency planning, it is essential that the section test the contingency plans to
gauge employees’ knowledge of and ability to execute these plans.

Recommendation 32: Embassy Khartoum should test the information technology contingency
plan in accordance with Department of State regulations. (Action: Embassy Khartoum)




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
Health Unit

        The health unit is located in the chancery and is staffed by a regional medical officer who
covers four other embassies, including Addis Ababa, Asmara, N’Djamena, and Djibouti. A local-
hire nurse and medical assistant complete the staff. A regional psychiatrist is based in Nairobi
and recently visited Embassy Khartoum. The health unit received high scores (4.76 out of 5) on
the OIG Workplace and Quality of Life questionnaire.

       Local medical services are considered adequate in some areas but lacking in others. The
post medical advisor retired in December 2012. The embassy is searching for a replacement.

       Informal Recommendation 21: Embassy Khartoum should arrange for a local medical
       advisor to provide temporary medical coverage in the absence of the post medical officer.

Employee Association

        The chief of mission’s annual statement of assurance on management controls noted as a
weakness that the American Employees’ Recreation and Welfare Association does not have
adequate controls over the sale of alcohol to prevent sales to nonmembers and unauthorized
individuals. The OIG team confirmed that the association board now has established a viable
point system to monitor the sale of alcohol.

        The employee association operates a liquor locker, sells logo merchandise, and sponsors
social events for members. The association recently updated its charter and license agreement
and has complied with financial reporting requirements by submitting the 2011 audit report,
including management letter. The association is preparing its 2012 semiannual financial
statement for submission.

Community Liaison Office

        At the time of the OIG inspection, the community liaison office coordinator was on
ordered departure but working in the Family Liaison Office in Washington, serving as a conduit
for information between evacuees and the embassy.




                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        In July 2012, the chief of mission submitted his annual statement of assurance on
management controls, citing inadequate oversight of the employee association and gaps in
procurement unit staff training as deficiencies. This inspection report addresses both areas,
noting the resolution of the employee association issues and the ongoing progress in improving
procurement unit staff training and performance. The OIG team also identified other areas in
which the embassy should improve management controls.

Human Resources

        The human resources functional questionnaire noted that overtime and compensatory
time are not authorized in writing and in advance. The OIG team’s review of time and attendance
reporting shows that LE staff overtime is not always approved in advance as required by Section
5.1.4 of the embassy’s Locally Employed Staff Handbook, dated July 2011. More than $400,000
was spent in overtime in ICASS in FY 2012. From pay period 01 to 22, local guards accounted
for $137,773 in overtime costs, followed by bodyguards ($37,745) and motor pool ($33,590).
Supervisors do not require employees to submit their requests in advance and to include a valid
reason with a realistic number of hours. Oversight of overtime requested and earned is a good
internal control to guard against waste and abuse in the timekeeping.

Recommendation 33: Embassy Khartoum should implement a policy on use of overtime and
issue an administrative instruction requiring supervisors to approve all overtime in advance.
(Action: Embassy Khartoum)

Supply Chain Management

        Internal controls along the supply chain are generally good. Use of the Integrated
Logistics Management System imposes discipline and consistency, but the OIG team identified
some weaknesses. The financial management office is not serving regularly as the designated
billing office. In many cases, the procurement section is receiving invoices, which is contrary to
proper separation of duties and prevents the financial management section from fulfilling prompt
payment requirements.

Recommendation 34: Embassy Khartoum should require the financial management office to
assume responsibilities as the designated billing office. (Action: Embassy Khartoum)

        The receiving clerks are reactive rather than proactive in tracking incoming shipments.
Better use of the Integrated Logistics Management System would give them visibility on all
outstanding purchase orders, instead of relying on another section to advise them of the arrival of
goods. This method would also strengthen internal controls by allowing receiving clerks to
monitor all goods ordered by the embassy.

       Informal Recommendation 22: Embassy Khartoum should arrange for receiving clerks
       to have single-screen visibility of outstanding purchase orders in the Integrated Logistics
       Management System.


                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The procurement unit is acting as the payment office by distributing checks to local
vendors. In accordance with 4 FAH-3 H-413.5, it is essential that the financial management
office perform this function to maintain proper separation of duties.

Recommendation 35: Embassy Khartoum should designate the financial management office as
the payment office to vendors. (Action: Embassy Khartoum)

        The embassy does not have an effective process for the financial management office to
notify the procurement unit of final payment to vendors so that the procurement can close out its
purchase orders. During the inspection, the procurement unit and financial management office
agreed to use the Regional Financial Management System Daily Vendors Paid report as a way
for procurement to confirm final payment and close out its purchase orders.

Consular Internal Controls

        The consular chief is attentive to regulations and guidance concerning nonimmigrant visa
referrals, but the embassy has not issued a recent notice that lays out the visa referral policy.

       Informal Recommendation 23: Embassy Khartoum should publish an embassy notice
       containing written guidance about the visa referral policy.




                                       30
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: [Redacted] (b) (5)



Recommendation 2: The Bureau of Human Resources, in coordination with Embassy
Khartoum, should designate public affairs officer position number 60127000 and FS-03
political/economic officer position number 10088152 at the speaking level 3/reading level 3 in
Arabic and designate assistant public affairs officer position number 60127005 and one of the
FS-04 political/public affairs officer positions at the speaking level 2/reading level 2. (Action:
DGHR, in coordination with Embassy Khartoum)

Recommendation 3: The Office of the U.S. Special Envoy for Sudan and South Sudan, in
coordination with Embassies Khartoum and Juba, the Bureau of Intelligence and Research, and
the Bureau of Population, Refugees, and Migration, should create a database of humanitarian and
conflict-related incidents in Sudan and South Sudan. (Action: S/USSESSS, in coordination with
Embassy Khartoum, Embassy Juba, INR, and PRM)

Recommendation 4: Embassy Khartoum, in coordination with the Bureau of Population,
Refugees, and Migration and the Bureau of Human Resources, should convert FS-02 economic
officer position 01801005 to a refugee and humanitarian affairs officer position until the Bureau
of Population, Refugees, and Migration determines whether creating a Khartoum-based refugee
coordinator position is warranted. (Action: Embassy Khartoum, in coordination with PRM and
DGHR)

Recommendation 5: The Bureau of African Affairs, in coordination with the Bureau of
Human Resources, should move an FS-04 or FS-03 political position from Embassy Khartoum to
Embassy Juba’s political/economic section to work on refugee and other humanitarian programs
or eliminate the position. (Action: AF, in coordination with DGHR)

Recommendation 6: The Office of Global Women’s Issues, in coordination with the Office of
the U.S. Foreign Assistance Resources and Embassy Khartoum, should prepare a sustainability
plan for the $470,000 African Women’s Peace and Security grant in Sudan. (Action: S/GWI, in
coordination with F and Embassy Khartoum)

Recommendation 7: Embassy Khartoum should implement a mission media plan to inform
the Sudanese public of the extent of U.S. Government assistance and of the efforts of the
embassy. (Action: Embassy Khartoum)

Recommendation 8: The Bureau of International Information Programs should fund a visit to
Khartoum by the information resource officer who covers Sudan. (Action: IIP)

Recommendation 9: The Bureau of Educational and Cultural Affairs should fund a visit by the
regional educational advising coordinator for Sudan to Embassy Khartoum to promote U.S.
higher education. (Action: ECA)



                                        31
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Khartoum, should send a specialist to Khartoum to complete a Fulbright Program needs
analysis. (Action: ECA, in coordination with Embassy Khartoum)

Recommendation 11: Embassy Khartoum, in coordination with the Bureau of Educational and
Cultural Affairs, should develop a plan to bring sports envoys to Sudan. (Action: Embassy
Khartoum, in coordination with ECA)

Recommendation 12: Embassy Khartoum should close all grants files with accurate and
complete documentation. (Action: Embassy Khartoum)

Recommendation 13: Embassy Khartoum, in coordination with the Bureau of International
Information Programs, should develop a plan to establish an American Corner in Khartoum.
(Action: Embassy Khartoum, in coordination with IIP)

Recommendation 14: Embassy Khartoum should implement standard operating procedures
for appropriate American officer oversight and supervision of consular operations and the use of
controlled items. (Action: Embassy Khartoum)

Recommendation 15: Embassy Khartoum, in coordination with the Bureau of Consular
Affairs, should review local employee staffing levels and eliminate position A30105. (Action:
Embassy Khartoum, in coordination with CA)

Recommendation 16: Embassy Khartoum, in coordination with the Bureau of Overseas
Buildings Operations, should install hardware on the door connecting the consular waiting room
and the chancery lobby to provide access to the consular waiting room in an emergency. (Action:
Embassy Khartoum, in coordination with OBO)

Recommendation 17: The Bureau of African Affairs, in coordination with Embassies
Khartoum and Juba, should implement a plan that identifies which posts will provide
management support to Embassy Juba. (Action: AF, in coordination with Embassy Khartoum
and Embassy Juba)

Recommendation 18: Embassy Khartoum, in coordination with the Bureau of African Affairs,
should implement procedures to review funds balances in the International Cooperative
Administrative Support Services allotment at least quarterly and make adjustments as necessary.
(Action: Embassy Khartoum, in coordination with AF)

Recommendation 19: Embassy Khartoum should implement a policy requiring that U.S.
dollar payments for reimbursement of representation expenses, travel claims, and travel advances
for American officers be made by electronic fund transfers to employee bank accounts. (Action:
Embassy Khartoum)

Recommendation 20: Embassy Khartoum should request, and the Bureau of the Comptroller
Global Financial Services should identify and collect overpayments to eligible family member
employees who were incorrectly maintained on the payroll following ordered departure. (Action:
Embassy Khartoum, in coordination with CGFS)



                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 21: Embassy Khartoum, in coordination with the Foreign Service Institute,
should request a liaison from the School of Language Studies’ Arabic division to help revamp
the post language program. (Action: Embassy Khartoum, in coordination with FSI)

Recommendation 22: Embassy Khartoum should implement procedures to terminate post
differential and danger pay when American personnel depart post on official and personal travel
and to restart allowances upon return to post and should reissue an administrative instruction
outlining the procedures and underscoring each employee’s responsibility to adhere to them.
(Action: Embassy Khartoum)

Recommendation 23: Embassy Khartoum should submit an updated hotel and restaurant
report to the Bureau of Administration. (Action: Embassy Khartoum)

Recommendation 24: Embassy Khartoum should implement a plan for timely submission of
employee performance reports. (Action: Embassy Khartoum)

Recommendation 25: Embassy Khartoum should implement a training plan that is in line with
Mission Resource Request goals and objectives. (Action: Embassy Khartoum)

Recommendation 26: Embassy Khartoum should implement a plan to comply with
Department of State guidance on completion of initial and refresher training for locally
employed staff who regularly operate armored vehicles. (Action: Embassy Khartoum)

Recommendation 27: Embassy Khartoum should implement a plan for compliance with
Department of State motor vehicle operator maintenance and use responsibilities by all
employees who drive government-owned vehicles. (Action: Embassy Khartoum)

Recommendation 28: Embassy Khartoum should establish an accurate baseline personal
property inventory and implement a plan for timely registration of information technology
equipment that is moved from one location to another. (Action: Embassy Khartoum)

Recommendation 29: Embassy Khartoum should implement a property disposal procedure
that complies fully with Department of State regulations, including consideration of specific
factors to determine the method most beneficial to the U.S. Government. (Action: Embassy
Khartoum)

Recommendation 30: [Redacted] (b) (5)



Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Khartoum, should implement a plan to remediate the apparent settling or structural
problem related to the Khartoum chancery building. (Action: OBO, in coordination with
Embassy Khartoum)

Recommendation 32: Embassy Khartoum should test the information technology contingency
plan in accordance with Department of State regulations. (Action: Embassy Khartoum)



                                       33
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 33: Embassy Khartoum should implement a policy on use of overtime and
issue an administrative instruction requiring supervisors to approve all overtime in advance.
(Action: Embassy Khartoum)

Recommendation 34: Embassy Khartoum should require the financial management office to
assume responsibilities as the designated billing office. (Action: Embassy Khartoum)

Recommendation 35: Embassy Khartoum should designate the financial management office
as the payment office to vendors. (Action: Embassy Khartoum)




                                      34
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Khartoum should issue a mission reporting plan.

Informal Recommendation 2: Embassy Khartoum should appoint and offer training for an
Equal Employment Opportunity locally employed staff liaison.

Informal Recommendation 3: Embassy Khartoum should post and publicize up-to-date
information on the Equal Employment Opportunity counselor and program rules and regulations.

Informal Recommendation 4: Embassy Khartoum should implement a policy requiring staff to
use the Contact Management Database.

Informal Recommendation 5: Embassy Khartoum should request support from the Office of
the U.S. Special Envoy for Sudan and South Sudan to complete mandatory reporting until the
number of embassy reporting officers returns to normal levels.

Informal Recommendation 6: Embassy Khartoum should require appropriate personnel to take
record email training, such as PS 530, offered online by the Foreign Service Institute.

Informal Recommendation 7: Embassy Khartoum should post biographic information on
Diplopedia once staff levels permit.

Informal Recommendation 8: Embassy Khartoum should establish reporting requirements for
locally employed staff members in the political/economic section and continue efforts to secure
training for them.

Informal Recommendation 9: Embassy Khartoum should request guidance from the Office of
the Legal Adviser to determine whether it is acceptable under the current sanctions regime to
provide funding to prevent trafficking in persons in Sudan.

Informal Recommendation 10: Embassy Khartoum should revise the Information Resource
Center director’s position description.

Informal Recommendation 11: Embassy Khartoum should provide additional social media
training to the public affairs information assistant.

Informal Recommendation 12: Embassy Khartoum should hire a locally based educational
advisor.

Informal Recommendation 13: Embassy Khartoum should review recent refusals and
deletions, seek guidance from the Bureau of Consular Affairs, and take any additional action
needed to make Khartoum’s visa records complete and accurate.
                                      35
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Khartoum should require the International
Cooperative Administrative Support Services budget committee to fulfill its roles and
responsibilities in accordance with Foreign Affairs Handbook requirements.

Informal Recommendation 15: Embassy Khartoum should reissue the management notice on
representation allowances that describes procedures for submitting claims and update the per
capita limits for various types of entertainment.

Informal Recommendation 16: Embassy Khartoum should translate receipts for official
residence expenses.

Informal Recommendation 17: Embassy Khartoum should implement a procedure to conduct
a quarterly review of vouchers certified by the senior Foreign Service national alternate
certifying officer.

Informal Recommendation 18: Embassy Khartoum should implement a fair and equitable
shift rotation plan for local guard force and motor pool drivers.

Informal Recommendation 19: Embassy Khartoum should survey American employees with
job-related needs for Arabic language training and offer lessons to meet their needs, including
individual sessions.

Informal Recommendation 20: Embassy Khartoum should establish a post orientation
program for new U.S. direct-hire employees.

Informal Recommendation 21: Embassy Khartoum should arrange for a local medical advisor
to provide temporary medical coverage in the absence of the post medical officer.

Informal Recommendation 22: Embassy Khartoum should arrange for receiving clerks to have
single-screen visibility of outstanding purchase orders in the Integrated Logistics Management
System.

Informal Recommendation 23: Embassy Khartoum should publish an embassy notice
containing written guidance about the visa referral policy.




                                      36
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                     Name    Arrival Date
Ambassador                                                 Joseph Stafford         6/2012
Deputy Chief of Mission                                 Christopher Rowan         12/2012
Chiefs of Sections:
 Management                                                William Steuer         8/2011
 Consular                                                  Katherine Estes        9/2011
 Political/Economic                                        Howell Howard          9/2011
 Public Affairs                                             Ron Hawkins           8/2012
 Regional Security                                         Kevin Whitson          8/2011
Other Agencies:
 Department of Defense                                     David Madison          2/2012
 U.S. Agency for International Development                  Barry Primm*         10/2011


* On ordered departure at the time of the inspection.




                                       37
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CDA              Chargé d’affaires

Department       U.S. Department of State

EEO              Equal Employment Opportunity

EFM              Eligible family member

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

GOR              Grants officer representative

ICASS            International Cooperative Administrative Support Services

IRC              Information Resource Center

LE               Locally employed (staff)

PAO              Public affairs officer

PAS              Public affairs section

S/USSESSS        Office of the U.S. Special Envoy for Sudan and South Sudan

Special Envoy    U.S. Special Envoy for Sudan and South Sudan

USAID            U.S. Agency for International Development




                            38
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
